                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL

ISP-IB-13-50                                  Office of Inspections                               September 2013




                  Inspection of U.S. International
                      Broadcasting to Russia




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.



                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Acting Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                         1
Context                                               2
Challenges of the Media Environment in Russia         4
Strategic Planning in Russia                          5
Executive Direction                                   8
  Voice of America Russian Service                    8
  Radio Free Europe/Radio Liberty Russian Service     9
  Voice of America Moscow News Bureau                 9
Broadcast Entities Operations                        10
  Voice of America Russia Service Stringers          10
  Radio Free Europe/Radio Liberty Russian Service    10
  Office of Strategic Development in Moscow          12
Resource Management                                  14
  Voice of America Russian Service                   14
  Voice of America Moscow News Bureau                15
  Radio Free Europe/Radio Liberty Russian Service    16
Management Controls                                  17
  Voice of America Russian Service                   17
  Voice of America Moscow News Bureau                17
  Radio Free Europe/Radio Liberty Russian Service    20
Security                                             21
  Voice of America Moscow News Bureau                21
List of Recommendations                              22
List of Informal Recommendations                     23
Principal Officials                                  24
  Voice of America Moscow News Bureau                24
  Radio Free Europe/Radio Liberty                    24
  Russian Service                                    24
Abbreviations                                        25




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Voice of America Russian Service and the Radio Free Europe/Radio Liberty Russian
    Service have had to adapt to an increasingly hostile environment for foreign broadcasters in
    Russia. They have implemented effective shifts in strategy to retain their longstanding
    connection with Russian audiences, moving from radio and television to digital platforms.

•   U.S international broadcasting entities in Russia have grown and operated independent of
    one another and continue to operate in parallel. Some small steps are being taken to foster
    greater collaboration and efficiencies as outlined in the Broadcasting Board of Governors’
    5-year strategic plan for 2012 through 2016, Impact through Innovation and Integration.

•   Radio Free Europe/Radio Liberty’s decision to reduce the staff of its Russian Service was
    logical in light of the Russian Government’s restrictions on its radio operations and the
    resulting decision to focus on digital platforms. However, implementation of this strategy
    was costly and significantly flawed. Radio Free Europe/Radio Liberty management,
    International Broadcasting Bureau staff, and the Broadcasting Board of Governors all bear
    responsibility for the missteps.

•   The International Broadcasting Bureau, Office of Strategy and Development, has creatively
    pioneered affiliate relationships for the Voice of America Russian Service with Russian Web,
    satellite, and cable television entities, thereby expanding the service’s reach to Russian
    audiences. Mindful of the political sensitivities in Russia at this time, the Office of Strategy
    and Development needs an internal process to protect the interests of all parties when
    affiliations agreements are not formalized.

•   Several management issues require attention in the Russian Service and the International
    Broadcasting Bureau. The managing editor of the Russian Service has not been formally
    appointed as the contracting officer’s representative for the service’s contracts. The
    International Broadcasting Bureau has not established a policy defining disciplinary actions
    for employees who misuse government-issued credit cards for travel.

•   The Voice of America Moscow News Bureau has several administrative weaknesses in the
    areas of contracting, cashiering operations, time and attendance, and property management.
    Voice of America senior management needs to address these deficiencies in a prompt
    manner.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 14 and April 5, 2013. Robert
Torres (team leader), Elizabeth Whitaker (deputy team leader), and Marygale Akpan conducted
the inspection in Washington, DC. Robert Torres conducted the on-site inspection in Moscow for
the Radio Free Europe/Radio Liberty Russian Service and Voice of America Moscow News
Bureau between April 6 and April 13, 2013.
                                        1
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Context
        Russian language broadcasting by U.S. Government international broadcast entities has
been a priority since the early days of the Cold War. The Voice of America (VOA) Russian
Service, a Federal broadcasting entity, has provided programming to Russia and other former
Soviet republics continuously since 1947. Radio Free Europe/Radio Liberty (RFE/RL), a private,
nonprofit grantee corporation, which has been broadcasting in Russia since 1953, receives
Federal funding from the Broadcasting Board of Governors (BBG). Augmenting the efforts of
these two broadcast entities are the VOA Moscow News Bureau, which has a correspondent
providing coverage of local and regional events in English for worldwide distribution, and the
International Broadcasting Bureau (IBB), Office of Strategy and Development (OSD), which has
a local contractor responsible for initiating and managing advertising placement efforts.

       The FY 2013 funding request for the VOA Russian Service is $3.7 million. The operating
budget for the VOA Moscow News Bureau and OSD’s Moscow operation is estimated at
$239,028 and $82,372 respectively. The RFE/RL Russian Service budget request for FY 2013 is
approximately $6.8 million.

       The mission of the VOA Russian Service is “to enhance Russian understanding of
American policies, politics, and culture, and of American views of Russia.” It offers in-depth
coverage of issues important to the United States, including promotion of democracy, rule of law
and respect for human rights, and fighting corruption, terrorism, and ethnic conflict. On Russian
domestic issues, the service seeks to add context and tie domestic issues to events around the
world, offering a wide spectrum of opinion, and serving as a forum for audience interaction.

        RFE/RL’s mission is to provide news and information to countries where a free press is
either banned by the government or not fully established. It has a long tradition in Russia as a
locally-based alternative to state-controlled media, offering uncensored news and open debate
about political, social, civic, cultural, and human rights issues.

        Both organizations have made changes in their strategies in response to political
developments in Russia. In 2008, President Vladimir Putin’s government pressured local radio
and television stations to stop rebroadcasting VOA programs. That year, the VOA Russian
Service transitioned from being a radio and television broadcaster to a Web-only outlet for news
and information. The RFE/RL Russian Service also lost affiliates. By 2012, it had only
shortwave and two mediumwave signals: one in Moscow, for which it owned the license, and a
second in a remote area of Russia, through a remaining affiliate on the Kola Peninsula taking 2
hours of content per week. With the passage of an amendment to the Russian law limiting
ownership of a broadcast license by a foreign person or entity to 48 percent, in late 2012 the
RFE/RL Russian Service lost its mediumwave broadcast license and has been compelled to
reexamine its operations in Russia. It retains its shortwave presence but has shifted its focus and
resources to a revamped digital platform.

       This shift in strategy required both the VOA Russian Service and the RFE/RL Russian
Service to reconfigure their staffing and bring in the skills necessary to support an all-Web
presence. The VOA Russian Service downsized from 44 to 23 people in 2008 and continues to
work on getting the right mix of cutting-edge Web savvy professionals and top-flight journalists.
                                       2
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

It successfully weathered criticisms from traditionalists, who decried the move away from radio
and television, and is building on successes of the past years to explore partnerships and
affiliations with assistance from OSD to deliver video content to Russian audiences through
Internet Protocol television, cable, and satellite. The RFE/RL Russian Service began its
transition in 2012 and is still grappling with the aftermath of the voluntary separation of 42 of its
61 Moscow-based employees. The service is also dealing with political fallout from two sources:
traditionalists who lament the virtual end of its mediumwave radio presence and those who see
the RFE/RL Russian Service’s strategy shift, coming on the heels of the expulsion of the U.S.
Agency for International Development by the Russian Government, as an example of the United
States abandoning pro-democracy forces in Russia.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Challenges of the Media Environment in Russia
        While the move to mostly-digital platforms by U.S. Government broadcasters may have
been inevitable by virtue of Russian political decisions and changing media consumption habits,
it has not proven as successful as hoped. While the Russian media environment is dominated by
state-owned broadcast media, it is also highly developed and competitive. It has traditionally
been a difficult market for non-native broadcasters to penetrate. Television remains the preferred
medium. The digital world in Russia is competitive and insular, in that Russians prefer “home-
grown” Internet sources over international sites like Facebook and Google. Both the VOA
Russian Service and the RFE/RL Russian Service have made strides toward establishing digital
platforms but have not found niches that allow them to be effective.

         There are also questions as to whether the U.S. Government is making the most effective
use of increasingly limited resources in broadcasting to Russia. A 2013 Government
Accountability Office study1 of overlapping language services among the VOA and BBG
affiliates questions whether it makes sense to have multiple U.S. international broadcasting
channels in the same language that target similar audiences. BBG’s 5-year strategic plan
addresses the same issue from a slightly different angle, stating that U.S.-funded media
properties operating in the same country should, where feasible, share bureaus, stringers, and
distribution networks. Russia would seem a good case in point, with VOA Russian Service and
RFE/RL Russian Service assets on the ground, as well as the VOA Moscow News Bureau
correspondent. Those assets have been put into place over time by each element with little
reference to one another in the process. Each has its own mission, resources, and processes.
Given shrinking budgets and changes in technology that facilitate real-time interconnectivity and
collaboration, as well as the significance of Russia to U.S. national security objectives, BBG has
an opportunity to take a broad strategic look at how all its resources and assets might best be
deployed to engage with Russian audiences. This is a first good step but all BBG assets in Russia
need to be taken into consideration.

Recommendation 1: The Broadcasting Board of Governors should implement a comprehensive
strategy for U.S. international broadcasting to Russia that includes all Broadcasting Board of
Governors entities operating in or broadcasting to Russia. (Action: BBG)




1
 U.S. Government Accountability Office, Broadcasting Board of Governors – Additional Steps Needed to Address
Overlap in International Broadcasting, GAO-13-172, January 2013.
                                          4
                             SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Strategic Planning in Russia
       Collaboration between the VOA Russian Service and the RFE/RL Russian Service has
been minimal. While many speak of the benefits of such collaboration, concerns over turf and
each outlet’s respective brand, and the physical separation of employees based in Moscow,
Prague, and Washington have impeded it. There is no sharing of content and neither outlet
provides a link to the other on its Web site; the inspection team did not find any duplication or
overlap of content in its review of the stories and issues covered by both. Despite the fact that
both entities have transitioned to an all-Web strategy, the inspection team found no evidence of
any consultation between the two entities. Consultation between the two might have provided the
RFE/RL Russian Service with some valuable lessons learned from the VOA Russian Service’s
experience.

        BBG’s 5-year strategic plan sets out key tactical steps toward the objective of becoming
“the world’s leading international news agency by 2016, focused on [their] mission and
impact.” 2 Among those steps are unifying the agency into one organization with many brands,
seizing targeted growth opportunities, rationalizing program delivery, expanding social media
innovation, and using leading-edge communication techniques and technologies—all directly
relevant to the VOA Russian Service and RFE/RL Russian Service. Indeed, the VOA Russian
Service’s FY 2013 performance plan sets out its performance objectives in terms of the BBG
tactical steps that the service plans to achieve. While the RFE/RL Russian Service’s strategy
does not make an explicit connection between the BBG strategic plan and its own tactics, its
move to an all-Web strategy and outreach to a younger demographic are consistent with the BBG
strategy.

         There are some differences, however, between the BBG strategic plan and the VOA
Russian Service and the RFE/RL Russian Service regarding the concept of “one organization,
many brands,” or the integration of news gathering and content distribution across all U.S.-
funded international broadcast entities. The strategy notes this is especially salient to broadcast
efforts in Russia, “where we have two U.S.-funded media properties operating in a given
country, now largely working in isolation of one another, they will cooperate, with shared
bureaus, stringers, and distribution networks where feasible. Each will provide complementary,
not duplicative, content.” 3

        Two recent developments may facilitate greater collaboration. The adoption of the
Pangea content management system, originated by RFE/RL, allows for swift and user-friendly
content sharing among U.S. broadcasting entities. Also, the RFE/RL Russian Service has offered
space in its new Moscow offices to the VOA Russian Service stringers. While promising, these
steps fall short of the BBG strategic vision, which correctly notes that today’s economic realities
argue for correcting organizational inefficiencies. The VOA Russian Service and the RFE/RL
Russian Service have different missions in Russia, but that should not prevent greater
collaboration in terms of physical, technical, and human resources.

Recommendation 2: The Broadcasting Board of Governors should require the Voice of
America Russian Service and the Radio Free Europe/Radio Liberty Russian Service to

2
    Broadcasting Board of Governors, Impact through Innovation and Integration: BBG Strategic Plan 2012-2016.
3
    Ibid.
                                             5
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

implement specific collaborative actions for their respective news bureaus, as outlined in the
Broadcasting Board of Governors’ 5-year strategic plan. (Action: BBG, in coordination with
VOA and RFE/RL)

        The third U.S. broadcasting element in Moscow is the VOA Moscow News Bureau
correspondent. His English-language reports are made available to language services throughout
VOA, which translate them for use with audiences around the world. Unlike RFE/RL Russian
Service and the VOA Russian Service, which covers mainly Russia news, the VOA Moscow
News Bureau correspondent provides news coverage about Russia and Russia’s southern
neighbors. The correspondent has office space at the RFE/RL Russian Service’s news bureau but
mostly works from home. He collaborates infrequently with either news service. In reviewing the
topics covered by both the RFE/RL Russian Service and the VOA Russian Service, the
inspection team determined that neither broadcasting entity made regular use of the
correspondent’s reports. The VOA Moscow News Bureau acts independently and sees its value
in sending reports that may be used by other VOA language services. VOA management is
reviewing the role of the VOA Central News Division and its news bureaus, including the one in
Moscow, in light of BBG’s 5-year strategic plan update. This review will focus on how the
content from the news bureaus around the world could be more effective in advancing BBG
goals and objectives.

       Like the RFE/RL Russian Service and the VOA Russian Service, the British
Broadcasting Corporation ended its Russian language broadcasting operations and shifted the
focus of its Russian content to the Internet in early 2011, primarily for budgetary reasons.
However, none of these broadcast entities has significant reach among the Russian people
through their online platforms. The British Broadcasting Corporation reaches 1.0 percent of the
population online weekly, while the VOA Russian Service’s Web site (Golos-Ameriki.ru)
reaches 0.1 percent. 4 Figures were not available for the RFE/RL Russian Service’s audience
penetration online since its late 2012 decision to move to an all-Web presence; it was at 0.3
percent penetration online prior to that decision. The challenge for all broadcast entities in this
highly competitive and sophisticated environment is to find a niche wherein they can offer
unique content attractive to their target audience.

          The VOA Russian Service uses a variety of multimedia platforms to reach its audience,
including an iPhone application, podcasts, blogs, audio and video live streaming, and a presence
on Facebook, YouTube, Twitter, and the Russian version of Facebook, Vkontake. It produces a
variety of programs on the service’s Web site and YouTube channel, such as Poedinok
(Crossfire), a weekly 15-minute Web-TV debate program featuring American and Russian
panelists who discuss a variety of topics relevant to the U.S.-Russia relationship, and Podelis
(Share), a 30-minute weekly social media-based show with audience participation. The service
also produces U.S.-focused digital content for placement on a Russian Web portal and a
television affiliate in Kazakhstan. June 2012 saw the launch of what the VOA Russian Service
calls its Washington Bureau strategy, a concept many believe is its most promising niche. With
the assistance of OSD, the VOA Russian Service provides live remote feeds several times a week
to two Russian Web/cable/satellite television channels. The VOA Russian Service and OSD are
seeking partnerships and affiliations with these and other channels for possible Internet Protocol
Television, cable, and satellite delivery of video content to Russian audiences.

4
    Gallup, Analytical Report for Russian Media Use Survey, November 2012.
                                            6
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


        The RFE/RL Russian Service has begun to partner with a range of independent media
outlets, providing content targeted to their specific demographics. In December 2012, the
RFE/RL Russian Service began placing content in Moscow with partners popular with younger
audiences.

        Success for the VOA Russian Service and the RFE/RL Russian Service will depend on
their ability to capitalize on the growth of new media in Russia, but the environment is fraught
with challenges. As described above, the online market is highly competitive and hostile to
international and independent broadcasters. The political environment in Russia is such that
those fledgling partnerships, which both entities have, remain vulnerable and subject to
government pressure and legal restrictions. There is also the possibility that the government may
seek greater control over the Internet, especially troubling in light of both outlets’ shifts to all
digital platforms. While the VOA Russian Service plans to eventually reintroduce itself to
television in Russia through its Washington Bureau strategy, the contingency plan for the
possibility of the Russian Government shutting down the digital platform is not known by either
broadcasting entity staff. As BBG considers the future of U.S. international broadcasting to
Russia and as IBB develops techniques to respond to disruptions of digital delivery platforms, it
would be useful to communicate a contingency plan to staff.

       Informal Recommendation 1: The Broadcasting Board of Governors should direct the
       Voice of America and Radio Free Europe/Radio Liberty to communicate the contingency
       plan for the possible disruption of broadcasting on the digital platform to their respective
       staff.




                                        7
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Executive Direction
Voice of America Russian Service

        The VOA Russian Service has had six managing editors or directors since 2008, while it
was transitioning from television and radio broadcasting to a digital platform. It is the only
language service in VOA that broadcasts exclusively in a digital platform. The upheavals of the
last 5 years created uncertainty and lowered staff morale. Morale today has improved
significantly.

        The VOA Russian Service managing editor leads the service effectively. She has
implemented the transition from radio and television programming to a round-the-clock presence
on the Internet with timely, interactive, and comprehensive news coverage and analysis using
multimedia elements such as podcasts, blogs, and video and audio live streaming. She has
overseen a recruiting effort that brought competent and professional journalists to the service.
The staff views her as a good leader and singled her out as the person responsible for fostering
harmony and cordial relations between the full-time employees and purchase order vendors
(contractors).

       Two assistant managing editors effectively supervise day-to-day operations. They are
responsible for editing content and supervising assignments, as well as other managerial duties.
The relationship between the assistant managing editors and the staff is good. There is open
discussion about topics to be covered and how to use limited resources effectively.

        The VOA Russian Service comes under the oversight of the VOA Eurasia Division. The
OIG personal questionnaires and interviews with VOA Russian Service direct hires and purchase
order vendors indicated that the VOA Eurasia Division director’s management style has affected
adversely the operations in the service. He is viewed by many in the Russian Service as a
micromanager who wants to know about every detail, from daily assignments to annual leave
requests. His approach has created a perception that he does not trust the VOA Russian Service
staff. For example, he states that he wants candid dialogue with the Russian Service staff but
does not foster the conditions for open communication. Inspectors were told that if he hears
something that he does not like, he immediately challenges it without seeking an explanation. An
incident mentioned by many in the Russian Service happened one day when he walked into the
office visibly angry, demanding to know why a particular event had not been covered by any
journalist in the service. He was mistaken in his perception—the event had been covered by
staff—but his assumption of negligence left a lasting negative impression on the staff about his
leadership style. He later apologized to some individuals but not to the entire staff who witnessed
the incident.

        IBB and VOA senior staff considers him one of the most effective division directors. To
the division director’s credit, he understands the strategic and political importance of the VOA
Russian Service, so it makes sense that he would devote the majority of his time to overseeing
the service’s activities and keeping VOA upper management apprised. However, he supervises
talented and experienced professionals who should be trusted and empowered to do their jobs.
Good management principles dictate that leaders should provide guidance to their subordinates
and allow them to do their jobs. OIG inspectors counseled the division director on this issue and

                                       8
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

offered frank suggestions to improve his management style. It is unclear if the team’s feedback
was well received. The inspection team notes that its observations are based only on
conversations with VOA Russian Service employees. A more comprehensive view of the
division director’s leadership might be drawn by including all Eurasia Division staff. VOA
senior management needs to provide the proper oversight to dissipate any misconceptions or to
counsel the Eurasia division director accordingly. Doing nothing to address this issue may have a
negative effect in VOA Russian Service operations.

Recommendation 3: The Voice of America should conduct a 360-review of the Eurasia
Division director and counsel him accordingly. (Action: VOA)

Radio Free Europe/Radio Liberty Russian Service

        At the time of the inspection, the RFE/RL Russian Service director had been in her role
for 7 months. During her tenure, with the backing of the then-RFE/RL president, she sought to
bring on journalists with the skills necessary to support the shift from radio to an all-Web
presence and to reduce the number of radio journalists on staff. The director brought on board a
number of journalists with whom she had worked previously at another multimedia publication.
This influx of new hires in the aftermath of a significant reduction in staff created tensions
among employees, generating a sense of the old team versus the new team and uneven morale.
Those hired by the service director were happy; those journalists who had been with the service
under different leadership were trying to cope with changes they felt had been imposed on them
by RFE/RL leadership. Following the on-site inspection, the service director announced her
resignation after 7 months on the job. The journalists who were hired during her tenure also
resigned.

Voice of America Moscow News Bureau

        The VOA Moscow News Bureau correspondent is often out of his Moscow office
covering events in Russia, Central Asia, and other areas of the former Soviet Union. In addition,
he may be called upon for coverage elsewhere. His relationship with the one local hire employee
on his staff is good. He maintains a close relationship with Embassy Moscow’s public affairs
section and with the embassy community in general.




                                       9
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Broadcast Entities Operations
Voice of America Russia Service Stringers

       The VOA Russian Service has 21 purchase order vendors in Russia and the former Soviet
Union, and six in the United States, including one in New York, two in New Jersey, two in
California, and one in Maryland. In Moscow, the stringers who work daily each file, on average,
one report per day. The stringers told the inspection team that they receive clear guidance and
spoke highly of the service’s leaders.

        Some purchase order vendors brought up the issue of late payment for their services. The
terms of their agreements with the VOA stipulate that payment should be made within 30 days
after submission of the contractor’s invoice. The inspection team found late payments occurred
twice in a calendar year for these stringers; for others, it was a one-time occurrence.

        Coordination between the purchase order vendors in Moscow and the VOA Russian
Service in Washington is effective. Editors are in regular communication with the contractors
about the quality and the topics of their submissions. The inspectors noted a good mix of
journalistic experience among the stringers. They cover a variety of topics, including breaking
news; political, economic, and cultural developments; and U.S.-Russia relations. The reports are
of very good quality. A Russian aggregator of international broadcasters, Isosmi, reprints the
majority of these reports.

Radio Free Europe/Radio Liberty Russian Service

       The RFE/RL Russian Service relies on staff based in Moscow and Prague as well as an
extensive network of correspondents to produce regionally-based content, a variety of discussion
forums, and highly engaging foreign coverage. In February 2013, the RFE/RL Russian Service
staff moved into a new facility that features a state-of-the-art video studio to enable the bureau to
enhance its digital content with Internet TV programming.

        The scope of the on-site inspection of this particular broadcasting entity included an
assessment of the procedures used in the separation of 42 RFE/RL Russian Service journalists as
part of their move to an all-Web strategy.

Separation and Resignation of Journalists

        The inspection team reviewed voluminous documentation regarding the separation and
resignation of the journalists. The inspector who traveled to Moscow met with some of these
journalists.

        Political developments in Russia described earlier in this report forced RFE/RL to cease
its mediumwave radio broadcasts by November 2012. The then-president of RFE/RL had earlier
that year conducted a review of the RFE/RL Russian Service operations and the local media
environment and concluded that the future lay in digital outreach, through the Web and mobile
devices. The Internet was growing while the audience for RFE/RL’s weak mediumwave signal
was waning. The RFE/RL senior management team in Prague decided to revitalize the Russian

                                        10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Service by moving operations to a new facility equipped with a state-of-the-art video studio and
modern digital transmission equipment; by retraining and, where necessary, replacing staff to
produce content for use across all platforms rather than having staff focused exclusively on radio
or Web content; and by hiring a new director, to be based in Moscow, where the training and
change were most needed. The plan was briefed orally and in writing to the Governors in
September and October 2012.

        As the Governors worked to devise an implementation plan for their strategy, RFE/RL
senior management and outside consultants (including the journalist who would subsequently
become director of the RFE/RL Russian Service) went through a process of determining who
among Russian Service employees were best suited to carry on the new strategy and who was
not. Interviews with RFE/RL management and a review of several documents indicate there were
different opinions among RFE/RL leaders about who should stay and who would be let go. After
much discussion, RFE/RL management came up with a list of 40 employees in Moscow and an
undetermined number of RFE/RL Russian Service employees based in Prague who they thought
should be separated.

        RFE/RL management hired an Anglo-American multinational law firm in Moscow to
provide advice on local labor laws and on how to proceed with the separations. The attorneys
recommended that RFE/RL offer the journalists the opportunity to sign voluntary separation
agreements with severance packages. Eventually, 40 Moscow-based employees of RFE/RL
signed the agreement. While this approach was legally appropriate, it failed to take into
consideration the public affairs impact of these separations. Many journalists affected were well-
known and respected, and some are human rights activists who were key players during the fall
of the Soviet Union. In retrospect, the former president of RFE/RL acknowledged that his team
failed to consider the political fallout of taking some of these journalists off the air after so many
years. The inspection team confirmed that some of these journalists were not allowed to bid
farewell to their listeners of many years, and others were summarily told to remove their
personal belongings from the office on a Saturday.

       The separation of the journalists created a firestorm of controversy internationally as it
was depicted as evidence that the United States was abandoning the cause of democracy in
Russia. This controversy could have been avoided or at least minimized. However, there were
missteps by RFE/RL management, IBB staff, and the Governors.

        RFE/RL management failed to involve members of its RFE/RL Russian Service in any
discussions of the imminent change of strategy. Information was closely held by senior RFE/RL
leaders and outside consultants were brought in as advisors. Employees were caught by surprise.
While RFE/RL management briefed the Governors in general terms about the proposed
separations they did not provide detailed information about the scope of planned separations or
how employees were to be selected for separation. Neither did they raise with the Governors the
possible political fallout of their actions in international human rights and journalistic circles.
RFE/RL management also failed to consider the optic of hiring as the director of the RFE/RL
Russian Service the journalist they had used as a consultant in devising their plans to revamp the
Russian Service. In the eyes of many employees, the new director was seen as having played a
key role in deciding what staff would stay or go. Further, the new director requested and was
granted a compensation package totaling nearly $200,000, following consultation with the

                                        11
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

former IBB chief financial officer. While senior IBB staff were aware of the request, it is not
clear whether the compensation was formally cleared by the IBB Director or by the Governors.

         In the wake of the controversy over the separations, some Governors claimed that they
had not been adequately briefed by RFE/RL leaders and publicly criticized the move. Published
minutes of BBG meetings indicate that, in those briefings, the Governors posed few questions
and did nothing to impede RFE/RL management from moving forward. While the Governors did
provide some direction to RFE/RL management in December 2012, this was only after the
separations and the ensuing negative publicity. The Governors’ behavior in this instance is
illustrative of their shortcomings as described in the OIG inspection report of the Broadcasting
Board of Governors. 5

       The president of RFE/RL who conceived and led the change in strategy for the RFE/RL
Russian Service resigned and was replaced by an interim president. Members of the former
president’s senior management team in Prague also left RFE/RL. The director of the RFE/RL
Russian Service resigned, as have many of her new hires. The interim president of RFE/RL has
hired back some of the journalists who separated in 2012.

Office of Strategic Development in Moscow

        OSD has a contractor who works under the supervision of the regional marketing officer
based in Prague. His responsibilities include representing VOA and RFE/RL interests inside
Russia for programming placements; translating legal documents (agreements on cooperation,
license agreements, laws, and normative documents) and technical documents (satellite
transponder changes and partners requirements to the format of submitted content feeds or
videos); facilitating contact with existing and prospective affiliates; and reporting on media
developments that could impact existing or future operations.

        OSD maintains a lease of a mediumwave transmitter in Moscow through the Voice of
Russia that operates 24 hours/7 days on 810 kHz. Accomplishments in 2012 included the launch
of the VOA Russian and English rich site summary feeds on redtram.com (news aggregator); an
agreement on cooperation with Galargo.tv (Internet TV site); and the launch of the Russian rich
site summary feed on inforrotor.ru (news aggregator). The content from the VOA Russian
Service is published in these news aggregators.

       OSD has a signed affiliate agreement with the Russian Business Channel, a Moscow-
based business Web/cable/satellite television channel. In consultation with the Russian Business
Channel, a reporter from the VOA Russian Service provides business reports Monday through
Friday for the channel’s 9:00 p.m. program and four standup reports from the New York Stock
Exchange.

       OSD has another affiliate-type relationship with Dozhd, a liberal news and arts channel
available on cable and satellite. There is no formal agreement between the two, stemming from
Dozhd’s reluctance to sign any documents with a foreign entity while the current political
climate prevails. IBB considered the risks of operating without any signed agreement but
concluded that benefits of television and Internet placement in Russia outweighed them. Any

5
    Inspection of the Broadcasting Board of Governors, OIG Report No. ISP-IB-13-07, January 2013.
                                             12
                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

exceptions to normal affiliate arrangements should be reviewed by IBB senior management and
formally documented. Even an internal memorandum stating the reasons for not having a
contract, noting what the specific expectations are on each side and what protections exist in the
event of default would be sufficient, even if one partner did not sign any agreement. Not having
any record of the affiliate arrangement or internal policy on how to handle an exception may lead
to misunderstanding and risks the unilateral interruption of operations, which would be a blow to
the VOA Russian Service’s efforts to reestablish itself in the Russian television market.

Recommendation 4: The International Broadcasting Bureau, Office of Strategy and
Development, in coordination with the Voice of America should implement an official policy
detailing an internal mechanism for affiliate partnerships without a contract. (Action: IBB, in
coordination with VOA)




                                       13
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
Voice of America Russian Service

 Funding                       Staff                      Salaries      General        Total
  Source                                                               Operating      Funding
                                                                       Expenses
FY 2013          Direct      Purchase Order Vendors
President's      Hires
Budget                        United        Moscow
Request                       States
                     19                6           21    $2,398,000    $1,296,000    $3,694,000
Source: VOA Russia Service

       IBB provides a variety of administrative services to the Voice of America, covering
human resources, finance, digital design, security, contracts, and technology. The inspection
team focused only on those services provided by the IBB support offices to the VOA Russian
Service.

Human Resources

       The Office of Human Resources provides adequate support to the VOA Russian Service.
A review of position descriptions, work requirements, and performance evaluations found them
completed and up to date.

         The Office of Human Resources provides a full-day orientation session for employees on
their first day, complementing briefings provided by Russian Service managers. While most
employees said they receive adequate mentoring and training from their supervisors, managers
do not keep track of their training courses that employees have taken or need to take for
professional development.

       Informal Recommendation 2: The Voice of America Russian Service should implement
       a comprehensive training plan for its employees and track training needs and
       accomplishments.

Equal Employment Opportunity/Employee Relations

        Employees of the VOA Russian Service indicated that they were aware of the Equal
Employment Opportunity program and the Office of Civil Rights and Office of Ombudsman.
There have been no Equal Employment Opportunity complaints, incidents, or disciplinary
actions in the VOA Russian Service in the last 2 years.

Financial Management and Inventory

       The Office of the Chief Financial Officer handles time and attendance, payment of
contractors, and travel vouchers for the VOA Russian Service. The inspection team reviewed a
sample of time and attendance records and travel vouchers. All were supported and no
                                       14
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

significant errors were identified. At the time of the inspection, the annual inventory of
accountable property for 2013 was underway.

Contracts

        The inspection team reviewed a sample of contracts for VOA Russian Service stringers.
Documentation was in good order; each contract included a clear statement of work and
stipulated that invoices are to be prepared after receiving deliverables (i.e., stories).

        The managing editor has not been appointed officially as the contracting officer’s
representative (COR) for the purchase order vendors’ contracts. She has completed COR training
but her official appointment was never done by the Office of Contracts. A COR should be
officially designated when any contract is awarded, with a designation memorandum provided to
the COR to keep on file. In accordance with Federal Acquisition Regulations section 1.604, “The
file must include, at a minimum, a copy of the contracting officer’s letter of designation and
other documents describing the COR’s duties and responsibilities.” A written COR designation
defines the COR’s roles, responsibilities, and limitations of authority.

Recommendation 5: The International Broadcasting Bureau, Office of Contracts, should
appoint officially in writing a contracting officer’s representative for the Voice of America
Russian Service contracts in accordance with Federal Acquisition Regulations. (Action: IBB)

Technical Issues

        Many of the OIG personal questionnaires pointed to issues with technical equipment and
limited technical resources. Most complaints centered on a lack of video editing stations,
outdated editing software, and the quality of video streaming from the Washington studios.
Employees said these issues adversely affect the quality of their work and the VOA Russian
Service’s ability to attract viewers. The inspection team brought these concerns to the attention
of service managers and the Eurasia Division director.

Voice of America Moscow News Bureau

        The VOA Moscow News Bureau has one American correspondent (on a Foreign Service
limited non-career appointment), two local hires: an office manager and a driver; and a local
American resident who was hired using a blanket purchase agreement, an issue discussed in the
Management Controls section of this report.

        Embassy Moscow provides adequate International Cooperative Administration Support
Services (ICASS) to the VOA Moscow News Bureau, including human resources, cashier,
security, and health services. The embassy charges VOA appropriately for services provided, but
the VOA correspondent acknowledged that he does not always examine the ICASS bill carefully.
He said that he was not aware that this was his responsibility. When the inspector brought up this
issue to his attention, he contacted the VOA administrative office in Washington and asked for
the ICASS bills to be sent to him on a regular basis for verification before payment.

      In March 2013, The VOA Moscow News Bureau moved out of its original office and
now has some office space in the RFE/RL Russian Service new facility. The VOA Moscow
                                        15
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

News Bureau correspondent also has a small studio/office in his apartment. While the sharing of
space at the RFE/RL new facility is consistent with BBG’s 5-year strategy of more integration,
the two entities have not formalized an agreement related to that space or the kind of support that
the VOA Moscow News Bureau will require. VOA officials in Washington and RFE/RL in
Moscow did not think an agreement was needed because the space requirements for the VOA
Moscow News Bureau were minimal. However, the VOA Moscow News Bureau is a U.S.
Government broadcast entity, while RFE/RL is a private, non-profit grantee corporation that
receives Federal funding from BBG. A written agreement concerning the space and support
services (e.g., parking designation and information technology requirements) to be provided by
RFE/RL to the VOA Moscow News Bureau would help ensure that both understand expectations
and procedures.

       Informal Recommendation 3: The Voice of America should establish a written
       agreement with Radio Free Europe/Radio Liberty that clarifies what services Voice of
       America Moscow News Bureau should receive as a tenant.

Radio Free Europe/Radio Liberty Russian Service

        The RFE/RL Russian Service is comprised of 31 employees and four stringers in
Moscow, and 29 employees and 7 stringers in Prague. In addition, the RFE/RL Russian Service
uses 30 stringers throughout Russia. Eight employees provide administrative support. A review
of the RFE/RL Russian Service’s administrative files and procedures indicated that all were in
order. Leases and contract files are well maintained and include supporting documentation;
financial records are well organized and reviewed monthly. The RFE/RL Russian Service
director of operations performs monthly cash counts and verifications and records them
appropriately. Time and attendance records are complete, and property inventory records are
accurate and current. The RFE/RL Russian Service performs a yearly physical inventory and
sends the results to RFE/RL headquarters in Prague. The inspector’s review of a sample of travel
vouchers revealed that they are well-supported with valid receipts, detailed expenses, and
appropriate authorizations.




                                       16
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
Voice of America Russian Service

       Internal property controls are in place in the VOA Russian Service, and all items were
accounted for properly in 2012. However, the OIG team found weaknesses in the travel card
program.

Travel Cards

        The OIG team reviewed the accounts of the six government travel cards issued to VOA
Russian Service employees. In one instance, a travel card was being used for nonofficial, non-
travel expenses. The IBB Manual of Operation & Administration section 665.1 states that “travel
cards under this program are solely for expenses incurred for officially authorized government
travel. Personal expenses not related to official travel should not be charged on the travel card.”

       Informal Recommendation 4: The International Broadcasting Bureau, Office of the
       Chief Financial Officer, should conduct periodic reviews on travel card invoices to
       ascertain that expenses are only for official, authorized travel-related expenses.

        Due to the lack of an internal policy defining disciplinary actions, appropriate action has
not been taken against those who violated the Federal Travel Regulations. Federal Travel
Regulation Section 301-70.708 states that, “[Agencies] may take appropriate disciplinary action
if an employee misuses the government-issued travel charge card. Internal agency policies and
procedures should define what the agency considers to be misuses of the travel charge card.” In
the absence of any policy, individual employee transactions may make inappropriate use of a
government-issued travel card without penalties or disciplinary actions.

Recommendation 6: The International Broadcasting Bureau should implement a travel policy
that defines appropriate disciplinary actions for misuse of official government travel cards.
(Action: IBB)

Voice of America Moscow News Bureau

      The inspection team found management control weaknesses in the VOA Moscow News
Bureau’s administration of contracts, cashier operations, time and attendance, and property
management.

Contracting

        The VOA Moscow News Bureau correspondent has Level I-Overseas contracting
authority, limited to simplified acquisitions not to exceed $50,000 and approved leases not to
exceed $50,000. In reviewing contracting files, the inspection team discovered that the
correspondent has been using a blanket purchase agreement to acquire the services of an
American resident in Moscow to perform a variety of tasks for 40 hours every week. In
accordance with Federal Acquisition Regulation 13.303-1, a blanket purchase agreement is a
simplified method of filling anticipated repetitive needs for supplies or services by establishing

                                        17
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

“charge accounts” with qualified sources of supply. If someone is working 40 hours regularly,
however, an employer/employee relationship is established. The OIG team counseled the
correspondent to consult with VOA Washington on how to use the proper contracting
mechanism to get the service of the American resident in Moscow.

        The reason for this oversight could be attributed to lack of contracting training. The
correspondent obtained his contracting appointment on August 17, 2010, but has not taken any
contracting training since then. The January 2006 Office Management and Budget Memorandum
for Chief Acquisition Officers and Senior Procurement Executives, and the Office of Federal
Procurement Policy Letter 05-91 establish continuous learning requirements for contracting
officers. The correspondent was not aware of the training requirement and the OIG team advised
him that he was not in compliance with Federal regulations. By taking some refresher
contracting courses, the VOA correspondent would ensure that any acquisitions he authorizes
comply with government standards.

Recommendation 7: The Voice of America should require that the Moscow News Bureau
correspondent take refresher courses in contracting as required by Federal regulations. (Action:
VOA)

Financial Management

        The IBB chief financial officer and staff oversee the budget of the VOA Moscow News
Bureau; the News Bureau’s office manager handles the budget for the office. She was a
                                                   [Redacted] (b) (5)
subcashier of the embassy’s Class B cashier with a          advance. Most bills received by the
office manager are small and paid with petty cash. The inspector noted that there were 10
invoices in the safe that had not been processed or paid, some more than 3 months old. In
addition, the inspectors found no records of unannounced cash counts by the embassy Class B
cashier. Per the BBG Manual of Administration VII 710, unannounced verifications of a cashier
must be conducted monthly, regardless of the advance amount. According to the draft IBB
Administrative Manual Title 7, Part 200, Section 206.7 c. (8), the supervisory official is
responsible for ensuring cash verifications and audits are performed as required. Neglecting this
requirement diminishes internal controls and creates the possibility for potential misuse of cash
funds.

Recommendation 8: The Voice of America should require that the Moscow News Bureau
conduct and document unannounced cash verifications on a monthly basis. (Action: VOA)

Time and Attendance

        The VOA Moscow News Bureau’s timesheets and leave documents were not available
for examination by the inspector because they were still stored in boxes following the move into
the new RFE/RL office space. It is not clear whether local employees are required to sign in and
out daily, nor could the inspector confirm that the correspondent verifies timesheets, signs them,
and then sends them to the embassy for processing. According to the BBG Manual of
Administration V-B 500, the VOA Moscow News Bureau correspondent should administer a
sound time and attendance process. Lack of consistent certification of time and attendance leaves
subordinates vulnerable to accusations of unexcused absenteeism. Because both local hires are
under the embassy’s local compensation plan, the News Bureau’s time and attendance
                                       18
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

procedures need to be the same as Embassy Moscow, in accordance with the Foreign Affairs
Handbook, 4 FAH-3 H-530.

Recommendation 9: The Voice of America should require the Moscow News Bureau to
implement time and attendance procedures in accordance with the Broadcasting Board of
Governors Manual of Administration and the Department of State’s regulations. (Action:
VOA)

Property Management

        VOA Moscow News Bureau’s property management procedures are weak. It is unclear
when the last inventory was performed and the information that VOA Washington has on the
News Bureau’s inventory is not current. Although VOA equipment and property are properly
labeled, most of the correspondent’s VOA-provided household items are not in the inventory
records. Some office items appear in VOA Washington inventory that no longer exist; they were
either disposed improperly or their disposal was not recorded in accordance with VOA
Administrative Guidelines Section 15. This significant deficiency is documented in a 2012 OIG
independent auditor’s report. 6 Not having an adequate process to update property records may
lead to inaccurate reports on the agency financial statements.

Recommendation 10: The Voice of America should require the Moscow News Bureau to
finalize a comprehensive inventory of all its property and implement written procedures for
keeping accurate inventory and disposition records on an annual basis. (Action: VOA)

Assistance to Address Administrative Weaknesses

        The administrative and management control issues described in this report require
immediate attention. There are no written administrative guidelines used by News Bureau staff.
There was no copy of the VOA Administrative Guidelines in the files. The correspondent is not
familiar with VOA administrative procedures and has limited experience in the Federal
government. During the course of the inspection, he contacted the VOA London News Bureau
and requested assistance in addressing administrative weaknesses. Followup will be critical to
bringing the VOA Moscow News Bureau into compliance with Federal regulations, VOA
administrative guidelines, and generally-accepted administrative practices.

Recommendation 11: The Voice of America should provide assistance to the VOA Moscow
News Bureau in conducting a comprehensive review of its administrative processes and
procedures and implementing corrective actions. (Action: VOA)

Official Vehicle

       The VOA Moscow News Bureau has an official vehicle that is designated for official
business only. The inspector did not find any written guidance on site regarding the use of the
vehicle. While it was a former practice to record mileage and annotate the purpose of each trip


6
 Independent Auditor’s Report, Broadcasting Board of Governors Financial Statements, September 30, 2012 and
2011, OIG Report No. AUD-FM-IB-13-12, November 2012.
                                          19
                             SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

on the vehicle’s Daily Trip Record form (OF-108), that practice was discontinued without a valid
reason. Neither the correspondent nor the driver keeps any record of how the vehicle is used.

       Informal Recommendation 5: The Voice of America Moscow News Bureau should use
       the Daily Vehicle Use Record Form (OF-108) for all trips in the official vehicle.

Radio Free Europe/Radio Liberty Russian Service

      Based on the limited-scope review of administrative operations, there were no indications
of management controls weaknesses in RFE/RL Russian Service operations.




                                      20
                         SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


     Security
     Voice of America Moscow News Bureau

             As stated earlier, RFE/RL has made office space available to the VOA correspondent.
     The building can only be accessed through common access cards obtained by the security
     guards. The correspondent is well informed on the use of security measures and cognizant of the
     security threats. He is satisfied with the security information received by the embassy security
     officer and has taken appropriate measures.

            The OIG team reviewed the security survey that the BBG Office of Security completed in
     July 2011 in the correspondent’s apartment and agreed with its content. Most of the
     recommendations were implemented, with the exception of one.[Redacted] (b) (5), [Redacted]
[Redacted] (b) (5), [Redacted] (b) (7)(F)                           (b) (7)(F)




                                               21
                                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Broadcasting Board of Governors should implement a
comprehensive strategy for U.S. international broadcasting to Russia that includes all
Broadcasting Board of Governors entities operating in or broadcasting to Russia. (Action: BBG)

Recommendation 2: The Broadcasting Board of Governors should require the Voice of
America Russian Service and the Radio Free Europe/Radio Liberty Russian Service to
implement specific collaborative actions for their respective news bureaus, as outlined in the
Broadcasting Board of Governors’ 5-year strategic plan. (Action: BBG, in coordination with
VOA and RFE/RL)

Recommendation 3: The Voice of America should conduct a 360-review of the Eurasia
Division director and counsel him accordingly. (Action: VOA)

Recommendation 4: The International Broadcasting Bureau, Office of Strategy and
Development, in coordination with the Voice of America should implement an official policy
detailing an internal mechanism for affiliate partnerships without a contract. (Action: IBB, in
coordination with VOA)

Recommendation 5: The International Broadcasting Bureau, Office of Contracts, should
appoint officially in writing a contracting officer’s representative for the Voice of America
Russian Service contracts in accordance with Federal Acquisition Regulations. (Action: IBB)

Recommendation 6: The International Broadcasting Bureau should implement a travel policy
that defines appropriate disciplinary actions for misuse of official government travel cards.
(Action: IBB)

Recommendation 7: The Voice of America should require that the Moscow News Bureau
correspondent take refresher courses in contracting as required by Federal regulations. (Action:
VOA)

Recommendation 8: The Voice of America should require that the Moscow News Bureau
conduct and document unannounced cash verifications on a monthly basis. (Action: VOA)

Recommendation 9: The Voice of America should require the Moscow News Bureau to
implement time and attendance procedures in accordance with the Broadcasting Board of
Governors Manual of Administration and the Department of State’s regulations. (Action: VOA)

Recommendation 10: The Voice of America should require the Moscow News Bureau to
finalize a comprehensive inventory of all its property and implement written procedures for
keeping accurate inventory and disposition records on an annual basis. (Action: VOA)

Recommendation 11: The Voice of America should provide assistance to the VOA Moscow
News Bureau in conducting a comprehensive review of its administrative processes and
procedures and implementing corrective actions. (Action: VOA)



                                       22
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Broadcasting Board of Governors should direct the Voice
of America and Radio Free Europe/Radio Liberty to communicate the contingency plan for the
possible disruption of broadcasting on the digital platform to their respective staff.

Informal Recommendation 2: The Voice of America Russian Service should implement a
comprehensive training plan for its employees and track training needs and accomplishments.

Informal Recommendation 3: The Voice of America should establish a written agreement
with Radio Free Europe/Radio Liberty that clarifies what services Voice of America Moscow
News Bureau should receive as a tenant.

Informal Recommendation 4: The International Broadcasting Bureau, Office of the Chief
Financial Officer, should conduct periodic reviews on travel card invoices to ascertain that
expenses are only for official, authorized travel-related expenses.

Informal Recommendation 5: The Voice of America Moscow News Bureau should use the
Daily Vehicle Use Record Form (OF-108) for all trips in the official vehicle.




                                       23
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                      Name     Arrival Date
Voice of America Russian Service
Division Director, Eurasia Division             Elez Biberaj       06/2005
Managing Editor                              Irina vanDusen        10/2004
Assistant Managing Editor               Arkady Cherepansky         04/2004
Assistant Managing Editor                        Julia Appel       01/2013


Voice of America Moscow News Bureau
Correspondent                                 James Brooke         05/2010


Radio Free Europe/Radio Liberty
Russian Service
Service Director                              Masha Gessen        10/2012*


* resigned on 05/2013




                                      24
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG               Broadcasting Board of Governors

COR               Contracting officer’s representative

Department        U.S. Department of State

IBB               International Broadcasting Bureau

ICASS             International Cooperative Administration Support Services

OIG               Office of Inspector General

OSD               Office of Strategy and Development

RFE/RL            Radio Free Europe/Radio Liberty

VOA               Voice of America




                             25
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
      Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
